<html>
<title> - ENGINEERING OUR WAY TO A SUSTAINABLE BIOECONOMY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        ENGINEERING OUR WAY TO A
                         SUSTAINABLE BIOECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2019

                               __________

                            Serial No. 116-6

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-583PDF                   WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e79788a7849294938f828b97c984888ac9">[email&#160;protected]</a>                 
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                NEAL DUNN, Florida
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  VACANCY
CHARLIE CRIST, Florida               VACANCY
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             NEAL DUNN, Florida
PAUL TONKO, New York                 TROY BALDERSON, Ohio
BEN McADAMS, Utah                    ANTHONY GONZALEZ, Ohio
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                            
                            C O N T E N T S

                             March 12, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    15

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    17
    Written Statement............................................    19

                               Witnesses:

Dr. Rob Carlson, Managing Director of Bioeconomy Capital
    Oral Statement...............................................    21
    Written Statement............................................    24

Dr. Kevin Solomon, Assistant Professor of Agricultural and 
  Biological Engineering at Purdue University
    Oral Statement...............................................    39
    Written Statement............................................    41

Dr. Eric Hegg, Professor of Biochemistry and Molecular Biology, 
  Michigan State University; Michigan State University 
  Subcontract Lead, Great Lakes Bioenergy Research Center
    Oral Statement...............................................    47
    Written Statement............................................    49

Dr. Sean Simpson, Chief Scientific Officer and Co-Founder of 
  LanzaTech
    Oral Statement...............................................    55
    Written Statement............................................    57

Dr. Laurie Zoloth, Margaret E. Burton Professor of Religion and 
  Ethics, and Senior Advisor to the Provost for Programs in 
  Social Ethics at the University of Chicago
    Oral Statement...............................................    63
    Written Statement............................................    66

Discussion.......................................................    72

             Appendix I: Answers to Post-Hearing Questions

Dr. Rob Carlson, Managing Director of Bioeconomy Capital.........    90

Dr. Kevin Solomon, Assistant Professor of Agricultural and 
  Biological Engineering at Purdue University....................    98

Dr. Eric Hegg, Professor of Biochemistry and Molecular Biology, 
  Michigan State University; Michigan State University 
  Subcontract Lead, Great Lakes Bioenergy Research Center........    99

Dr. Laurie Zoloth, Margaret E. Burton Professor of Religion and 
  Ethics, and Senior Advisor to the Provost for Programs in 
  Social Ethics at the University of Chicago.....................   101

 
                        ENGINEERING OUR WAY TO A
                         SUSTAINABLE BIOECONOMY

                              ----------                              


                        TUESDAY, MARCH 12, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. Good morning and welcome to the 
Research and Technology Subcommittee's first hearing of the 
116th Congress. A warm welcome to our distinguished group of 
witnesses. We have a great panel this morning, and I'm looking 
forward to hearing your testimony. As a Michigan native, it's a 
great pleasure to welcome Dr. Eric Hegg, who joins us from 
Michigan State University. Congrats on Saturday's win, and 
thank you for being here with us. I'm sorry I'm not wearing my 
green.
    As a Member of this Committee, we have the opportunity to 
learn about critical, new, and emerging technologies with the 
capacity to benefit society in a number of ways, and to 
consider how the Federal Government can best support the 
responsible development of these technologies. This morning, 
the Committee will discuss new and developing biotechnologies 
enabled by engineering biology research, and their potential 
applications in sustainable agriculture, advanced 
manufacturing, and bioenergy.
    Engineering biology, a term which is used interchangeably 
with synthetic biology, is a multidisciplinary field at the 
intersection of biological, physical, chemical, and information 
sciences and engineering that allows researchers to re-engineer 
and develop new biological systems. While human gene editing is 
a hot topic of discussion in the public sphere, most of 
engineering biology research being done today, even the human 
health research, is on microorganisms and plants. Engineering 
biology, in addition to enabling whole new industries, may 
yield significant environmental and health benefits because of 
its potential to reduce our dependence on fossil fuels, improve 
food security and agricultural land use, make manufacturing 
processes much cleaner, combat antibiotic resistance, and even 
clean up legacy toxic waste sites.
    Today, we will hear from the experts in academia and 
industry about the nature of engineering biology research, the 
current size of the commercial market and the potential for 
growth, how the U.S. stacks up against our foreign competitors, 
and the state of the U.S. biotechnology workforce. We will also 
hear from scholars on the ethical and security implications of 
engineering biology. It is essential that as we look to grow 
the U.S. investment in engineering biology R&D (research and 
development), we integrate the oversight framework necessary to 
protect the public and the environment, and to guard against 
national security risks.
    In this Committee, it is easy to get excited about the 
potential for new technologies. But we need only to look at the 
unintended consequences of past technologies to understand that 
we also must take a look at the risks.
    Given the tremendous economic potential buttressed with the 
potential risks for engineering biology R&D, we seek to 
maintain U.S. leadership in this area of research and 
technological development. We seek to develop and charter a 
national strategy as we currently do not have one, in the 
meantime, where other countries, including China, are well 
ahead of us in establishing engineering biology as a national 
priority and providing the necessary funding and political will 
to realize these goals.
    In this hearing, we will specifically consider the merits 
of the Engineering Biology Research and Development Act 
introduced last Congress by the Chairwoman of the Full 
Committee, Ms. Johnson. The bill would provide a framework for 
a strategic and coordinated Federal program in engineering 
biology R&D. It is long overdue that we take this legislation 
up in Committee.
    I am sure today's hearing will give us some good feedback 
on how to improve this legislation so it helps ensure U.S. 
leadership in engineering biology R&D. I look forward to the 
expert testimony and to the discussion.
    And with that, I yield back.
    [The prepared statement of Chairwoman Stevens follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. The Chair now recognizes Mr. Baird for 
an opening statement.
    Mr. Baird. Thank you and good morning. And thank you, 
Chairwoman Stevens. I appreciate the opportunity to be here and 
for holding this hearing. I'm looking forward to working with 
you on the Research and Technology Subcommittee as the Ranking 
Member. I'm also glad that engineering biology and the 
bioeconomy is the subject of our first Subcommittee hearing of 
the year. In my Central Indiana district, the emerging 
bioeconomy presents an opportunity to expand and enable new 
markets in agriculture, energy, and manufacturing. From the 
basic research that's conducted at Purdue University to the 
development and application of that research by the more than 
1,700 biology science businesses in the State, Indiana is on 
the forefront of the biotechnology innovation.
    Humans have used biotechnology since the dawn of 
civilization, manipulating biology to improve plants and 
animals through hybridization and other methods. Since my days 
in the lab working toward my Ph.D. on monogastric nutrition, 
there have been rapid advancements in scientific knowledge and 
technology that have given rise to the field of modern 
biotechnology making useful products to meet human needs and 
human demands.
    We have a distinguished panel of witnesses today who will 
help us understand the state of science and engineering biology 
and advise us on how to maintain U.S. leadership in biology 
innovation. I particularly want to thank our witness, Dr. Kevin 
Solomon, from Purdue University, my alma mater, for being here 
today. I'm very interested to learn more about the cutting-edge 
research on engineering biology in the gut microbiome of cattle 
and other livestock. I hope that today's hearing will help 
inform research and a regulatory framework that continues to 
ensure safe and ethical development of biotechnology without 
stifling innovation.
    Thank you, Madam Chairwoman. I yield back.
    [The prepared statement of Mr. Baird follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you, Mr. Baird. He's correct. I, 
too, am looking forward to working with him on the Subcommittee 
for Research and Technology.
    The Chair now recognizes the Ranking Member of the Full 
Committee, Mr. Lucas, for an opening statement.
    Mr. Lucas. Thank you, Chairwoman Stevens, and Ranking 
Member Baird for holding this hearing today and thank you to 
our witnesses.
    In both the House Agriculture Committee and the Science 
Committee, we've held hearings on biotechnology research and 
regulation for years. But I can't remember a more exciting or 
challenging time for the field than today. New gene editing 
techniques like CRISPR (clusters of regularly interspaced short 
palindromic repeats) and the advancement of rapid genetic 
sequencing are driving innovations in agriculture, medicine, 
energy, and manufacturing. Since we first began cultivating 
crops and breeding livestock, humans have been trying to 
improve plant and animal genetics. Now we're developing the 
tools to do it with a precision, speed, and scale our ancestors 
could not have imagined.
    In the Capitol there is a statue of Dr. Norman Borlaug, the 
father of the Green Revolution. Dr. Borlaug developed new crop 
strains that saved billions from famine and helped develop the 
abundant and affordable food supplies we enjoy today. His work 
set the stage for modern biotechnology which took off in 1973 
when American scientists developed a technique that allowed the 
production of genetically engineered human insulin. It was the 
first biotech product approved for sale in the United States in 
1982 and has improved the lives of millions of diabetics.
    In addition to these improvements in agriculture and 
medicine, engineering biology could also transform the energy 
sector. Scientists are engineering biology to try to address 
energy challenges, such as enhanced oil recovery, environmental 
remediation, carbon sequestration, and new materials. Several 
of our panelists are working in this area, and I look forward 
to hearing more about their work. The U.S. was a key driver of 
biological innovation in the 20th century. But there is 
increasing global competition. Other countries recognize the 
benefits of biotechnology and are striving to capture its 
potential through new investments and friendly regulations. We 
must keep pace and set a research and regulatory framework that 
supports innovation, creates a marketplace for new ideas and 
products while setting the safety and ethical standards for the 
world to follow.
    I look forward to working with Chairwoman Johnson to 
advance legislation that will promote a national research 
strategy around engineering biology to ensure the U.S. remains 
the global leader in biotechnology. I hope this hearing will 
help inform us about our work on legislation and our work in 
the future.
    And with that, I yield back, Madam Chairman.
    [The prepared statement of Mr. Lucas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. At this time I would like to 
introduce our witnesses. Our first witness, Dr. Rob Carlson, is 
the Managing Director of Bioeconomy Capital, a venture capital 
firm that invests in industrial biotechnology. He is the author 
of Biology is Technology: The Promise, Peril, and New Business 
of Engineering Life. Dr. Carlson holds a bachelor's degree in 
physics from the University of Washington and a Ph.D. in 
physics from Princeton.
    Our next witness is Dr. Kevin Solomon. Dr. Solomon is an 
Assistant Professor of Agricultural and Biological Engineering 
at Purdue University. His work focuses on the development of 
sustainable microbials, a process to supply the energy, 
materials, and medicines of tomorrow. He holds a bachelor's 
degree in chemical engineering and bioengineering from McMaster 
University in Canada and a Ph.D. in chemical engineering from 
MIT.
    Our third witness, Dr. Eric Hegg, is a Professor of 
Biochemistry and Molecular Biology at Michigan State University 
and is also the Michigan State University Subcontract Lead at 
the Great Lakes Bioenergy Research Center, a Department of 
Energy-funded research center working to develop sustainable 
biofuels and bioproducts. Dr. Hegg holds a bachelor's degree 
from Kalamazoo College and a Ph.D. from the University of 
Wisconsin-Madison.
    After Dr. Hegg is Dr. Sean Simpson. Dr. Simpson is the 
Chief Scientific Officer and Co-Founder of LanzaTech, a 
biotechnology company that converts waste carbon from 
industrial processes into commodity chemicals and biofuels. Dr. 
Simpson received his master's in science from Nottingham 
University and his Ph.D. from the University of York in the 
United Kingdom.
    Our final witness is Dr. Laurie Zoloth. Dr. Zoloth is the 
Margaret E. Burton Professor of Religion and Ethics as well as 
a Senior Advisor to the Provost for Programs in Social Ethics 
at the University of Chicago. Dr. Zoloth was previously the 
President of the American Society for Bioethics and Humanities. 
She holds a bachelor's degree in women's studies from the 
University of California-Berkeley and received a master's in 
Jewish studies and a doctorate in social ethics from the 
Graduate Theological Union.
    Well, the Chair at this time would like to recognize our 
Chairwoman, Ms. Johnson.
    Chairwoman Johnson. Thank you. I apologize for being late. 
Let me give a quick statement. First, let me welcome all of our 
witnesses and thank the Chairwoman and Ranking Member for 
holding this hearing.
    Today we will hear about engineering biology research--you 
can tell I'm out of breath--and its applications in energy, 
agriculture, manufacturing, the environment, and human health.
    We've invited academic researchers, a small company, as 
well as experts on ethics and security implications of 
engineering biology to help us understand how we can maintain 
U.S. leadership in engineering biology and achieve a 
sustainable bioeconomy. Engineering biology research allows 
researchers to safely re-engineer existing biological systems 
and to learn from and mimic existing biological systems to 
perform novel tasks and develop novel materials and products. 
Technologies enabled by engineering biology are exciting and 
have the potential to solve some of society's greatest 
challenges, including providing food for a growing population, 
reducing our dependence on fossil fuels, and dramatically 
transforming manufacturing. They also have numerous 
implications for human health as well as for the environment.
    Because of the great promise of this research and its 
applications, I introduced the Engineering Biology Research and 
Development Act in 2015. By then, several other countries had 
already prioritized engineering biology and developed national 
strategies for their investments. And I was concerned that the 
U.S. risks losing our leadership in an industry that we 
historically dominated.
    Here we are 4 years later, and instead of pulling together 
the expert stakeholders to develop such a strategy, this 
current Administration is prompting massive cuts to our science 
budgets once again. There's no question that we would cede our 
leadership in engineering biology as well as in many other 
areas of science and technology if the President's proposed 
cuts to this Nation's R&D enterprise were to be enacted into 
law.
    I intend for this Committee to set us on a more hopeful 
path for what and I hope we can work on a bipartisan basis to 
ensure that the whole Congress does likewise.
    The Engineering Biology Research and Development Act would 
establish a framework for greater interagency coordination of 
Federal investments in engineering biology and lead to a 
national strategy for these investments.
    The bill would also focus on expanding public-private 
partnerships, and on education and training for the next 
generation of engineering biology researchers. Importantly, the 
bill would ensure that we address any potential ethical, legal, 
environmental, and societal issues associated with engineering 
biology. It will also ensure that public engagement and 
outreach are an integral part of this research initiative.
    The Committee was not given the opportunity to consider and 
move this bipartisan piece of legislation since 2015. However, 
it is on our agenda this year, and I look forward to working 
with our colleagues on both sides of the aisle so we consider 
amendments informed by experts and including on today's panel.
    A sustainable bioeconomy is central to the future of U.S. 
competitiveness and the well-being of our population. And 
engineering our way to a sustainable bioeconomy begins with a 
national strategy and careful attention to societal 
implications.
    I once again thank all of our witnesses for being here, and 
I look forward to the discussion. And I yield back. Thank you.
    [The prepared statement of Chairwoman Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you, Madam Chairwoman, of our 
Full Committee. If there are any Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    As our witnesses should know, you each have 5 minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing. When you all have completed your 
spoken testimony, we will begin with questions. Each Member 
will have 5 minutes to question the panel.
    We will start with Dr. Carlson.

                  TESTIMONY OF DR. ROB CARLSON,

             MANAGING DIRECTOR OF BIOECONOMY CAPITAL

    Dr. Carlson. Well, thank you first for having me here. I 
appreciate the opportunity to address the Committee and share 
what I've learned over the years about the size of the 
bioeconomy and how it's changing.
    My name is Rob Carlson, and I am the Managing Director at 
Bioeconomy Capital in Seattle. We also have offices in San 
Francisco. I'm also a Principal at a consulting firm called 
Biodesic, which focuses on engineering strategy and security. 
And I've just recently rejoined the faculty in an affiliate 
position with the Paul Allen School of Computer Science and 
Engineering at the University of Washington. But I'm here on 
behalf of myself and Bioeconomy Capital today. And I was asked 
to share a few slides about what I've discovered about the size 
of the bioeconomy. And it's not small.
    About 2007 or so I was in Hong Kong on a consulting trip 
discussing biofuels and biomaterials, talking to big banks 
about investment. And it occurred to me that maybe I should 
know how big it was. What was this thing I was talking about? 
What was the bioeconomy? And so I was taking a break in the 
middle of a thunderstorm in my hotel in Hong Kong, looking out 
over the bay. And with a metaphorical and literal flash of 
lightning, I realized nobody knew how big it was. I Googled the 
size of it, and there was no data. And there ensued about 10 
years' worth of effort to try to put some numbers on this. And 
I finally published those in 2016 in Nature Biotech. And these 
numbers are updated as of this week to 2017.
    [Slide]
    There's no U.S. Government recordkeeping, statistical 
recordkeeping of this information. This is all sort of by hook 
and by crook. Wherever I can find data, I put it together and 
include it in the publications and then in the accounting that 
you see before you.
    So biologics are about $137 billion of revenue in the 
United States. Those are drugs that are mostly proteins but 
also now increasingly some other compounds. Genetically 
modified crops and seeds were in 2017 about $104 billion. That 
goes up and down of course because crop prices go up and down. 
The penetration of genetically modified crops in each of the 
markets that they're in is nearly 100 percent, between 90 and 
100. It varies a little bit every year.
    The big number that surprised me when I first started doing 
this, and continues to surprise, is the industrial biotech 
sector which people don't usually discuss. That's enzymes and 
materials. And overall, I think it's worth noting here that the 
worldwide semiconductor revenues in 2016 were $370 billion. So 
all of this biotech just in the United States is bigger than 
the global semiconductor industry.
    The breakdown of those industrial biotech numbers are 
interesting to me. The biochemicals portion of that is about 
$92 billion. That's business-to-business. So the consumer-level 
impact is certainly more than $100 billion. Biofuels in the 
U.S. contribute only about $4 billion.
    So this is kind of an unheralded section of the economy 
that we don't really understand. This is now almost certainly 
in the U.S. Government supply chain, certainly in the Defense 
Department supply chain. And there's no way to track it. 
There's no way to know how big it is. There's no way to know 
who's making what or how many people are employed in this 
industry other than what private companies choose to share 
about that. And I think this is a serious oversight in the way 
we're understanding our economy, not that we should be managing 
it aggressively but we should certainly be understanding it.
    Those revenues have grown quite significantly over the 
years. You can see the breakdown here.
    [Slide]
    The bars are data that I've been able to graph from various 
sources over the years, and the industrial data, I should say, 
is provided by Agilent the last few years. They're the only 
company that's publicly acknowledging a wide marketing study. 
But it's a marketing study. It's not based on government 
statistics and the way that you would draw on the NAICS, the 
North American Industrial Classification System, which is how 
we understand the rest of our economy. And then the growth 
rates there are shown. All of this is of course in my 
testimony. And I won't spend a lot of time on it here, but I'm 
happy to answer questions about it as we go forward.
    Once you have that data, then you can start comparing the 
growth in biotech to the rest of the economy. And it is non-
trivial. All right?
    [Slide]
    So now we're up at about 2 percent of GDP from 
biotechnology. This is from engineered biological systems. 
That's bigger than mining. It's bigger than several 
construction industries. It's bigger than some manufacturing 
subsectors in the United States. And it's quite intriguing 
there on that top line to see how much of U.S. GDP growth was 
contributed by biotechnology in the recent recession. It's a 
more stable industry than many. And again, I wish we understood 
this better.
    And finally, I'll just close on some observations that 
originally were drawn from a Biodefense Net Assessment that I 
wrote several years ago trying to understand who was doing what 
in the world. And as we've heard from the opening statements, 
many countries are investing very heavily. China in particular 
is leading out with serious investment and also potentially 
with--I think I have one more slide. No. We can discuss China 
in the questions.
    I'd just close here by saying the definition of bioeconomy 
and what we include in our definition clearly is going to be 
different from other countries. Last spring at the Global 
Bioeconomy Summit the final communique said here's what we 
think the bioeconomy is. But really, you can define it however 
you like. And that's not super-useful for comparing across 
countries. And we should, I think, have a definition that's 
consistent over time, and then we can use that also to judge 
other countries. So at the moment, we can't know whether we're 
winning or losing because we're not measuring anything. But 
it's clear that other countries are investing very heavily and 
are making some progress.
    Thank you.
    [The prepared statement of Dr. Carlson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. The Chair now recognizes Dr. Solomon.

                 TESTIMONY OF DR. KEVIN SOLOMON,

            ASSISTANT PROFESSOR OF AGRICULTURAL AND

           BIOLOGICAL ENGINEERING, PURDUE UNIVERSITY

    Dr. Solomon. Chairwoman Stevens, Ranking Member Baird, and 
Members of the Committee, good morning. My name is Kevin 
Solomon, and I am an Assistant Professor of Agricultural and 
Biological Engineering at Purdue University. Thank you for 
inviting me to speak to you today about my work at the 
intersection of engineering, synthetic biology, and the 
microbiome.
    My lab develops microbial systems that have diverse 
applications for agriculture, bioenergy, and biomanufacturing. 
Our work is currently supported by the National Science 
Foundation, and we rely on user facilities provided by the 
Department of Energy's Office of Science.
    One specific example I would like to share from my work 
that showcases a potential of engineering biology has to deal 
with our work studying in the microbiomes, the gut microbiomes 
of cattle and other livestock. These tiny microbes that live 
within these animals, they are critical for digestion and 
providing nutrition to the host animal. However, their ability 
to degrade its plant material to provide this nutrition also 
has an ability to revolutionize bioenergy production.
    At the same time, these microbes, they produce antibiotic-
like compounds that we believe may be harnessed into new 
medicines in the future. And my lab is very much interested in 
understanding, controlling, and imitating these microbes 
because they have a potential to naturally enhance food 
production in cattle and other livestock, to overcome a key 
hurdle in bioenergy, and potentially provide us with new tools 
to combat antibiotic resistance.
    So based on this example, we can see that engineering 
biology research can simultaneously affect multiple domains and 
multiple mission areas within the Federal Government. And so 
the coordinated Federal Research Program for Engineering 
Biology as envisioned by the Engineering Biology and Research 
and Development Act of 2019 will enable the U.S. to continue 
its leadership in engineering biology.
    In my written testimony I elaborate more on the state of 
research and training in this area and outline how the bill may 
advance these areas. However, I'd like to provide a brief 
overview of four key goals that I think the bill should 
address.
    First, the bill should provide a forum for interagency 
collaboration and information sharing as well as multi-agency 
funding mechanisms that enable game-changing technologies. The 
current funding mission is very mission-driven and relies on 
the ability of scientists to correctly match agency needs to 
their science, regardless of innovation. A coordinated 
framework can help remove these artificial institutional 
barriers to innovation and help us better recognize and support 
innovating and cross-cutting ideas that will be key to 
maintaining the preeminence of American technology. And 
hopefully, these mechanisms should consider these ideas for 
funding from all relevant agencies.
    Second, we should provide sustained research funding to 
critical research programs in engineering biology at mission 
agencies. So many Federal agencies currently benefit from 
engineering biology, and agencies such as the Department of 
Energy, NASA, they have selected topics of interest that they 
rotate in a 4-year cycle. However, these topics, because 
they're not coordinated currently, they may overlap in a given 
year which leads to lapses in funding in subsequent years. And 
what that does is that those gaps in funding, they discourage 
and slow the development of emerging leaders with innovative 
ideas and that can cause the U.S. to fall behind, to follow, 
rather than lead, in these critical areas. And so a coordinated 
framework can help provide a more sustained commitment to 
research.
    Third, we should ensure a variety of funding mechanisms to 
ensure a broad ecosystem of researchers along with focused 
multi-disciplinary centers. Major center opportunities are an 
important component of the engineering biology ecosystem, as 
they act as nexuses for student training, interdisciplinary 
research, and commercialization of technology. As a graduate of 
one of these, I am an advocate for them. However, it's also 
important that individual researchers have the opportunity to 
contribute to ensure a broad and healthy ecosystem of research.
    And finally, we should also increase U.S. capacity and the 
number of people with skills in engineering biology by 
providing direct support for experiential training programs. 
Currently, student research is essential to preparing the 
emerging engineering biology workforce and train the 
researchers of the future. For example, within this community, 
we have developed and we have embraced the International 
Genetically Engineered Machines Competition, or IGEM, which has 
trained more than 40,000 students from across the globe. And 
these students are high school students, undergraduate, and 
also graduate students. Their combined efforts have led to a 
number of startups, some of them in excess of a valuation of $1 
billion. These student-led teams that engage in authentic 
research to solve societal problems; develop critical skills in 
leadership, communication, and entrepreneurship; and they learn 
key values such as biosecurity, safety, and ethics. Funding 
mechanisms for teams that participate in these programs would 
be very helpful to sustain these efforts.
    In closing, a coordinated initiative in engineering biology 
will greatly enhance American competitiveness and innovation. 
And I just want to thank you again, the Committee here, for 
your work on this important issue and for supporting our 
community. Thank you.
    [The prepared statement of Dr. Solomon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. The Chair now recognizes Dr. 
Hegg.

                  TESTIMONY OF DR. ERIC HEGG,

        PROFESSOR OF BIOCHEMISTRY AND MOLECULAR BIOLOGY,

                 MICHIGAN STATE UNIVERSITY, AND

          MICHIGAN STATE UNIVERSITY SUBCONTRACT LEAD,

             GREAT LAKES BIOENERGY RESEARCH CENTER

    Dr. Hegg. It is my honor to testify today on the 
opportunities of new and emergent technologies associated with 
engineering biology. I am representing myself, and the views I 
express are my own.
    By way of background, I am a biochemistry professor at 
Michigan State University (MSU). And in this role, I've 
experienced the critical collaborative partnerships that exist 
between the Federal Government and universities. At MSU, DOE 
(Department of Energy) and NSF (National Science Foundation) 
funding make up approximately 50 percent of the total Federal 
research budget. These funds support vital cutting-edge 
research, train future scientific leaders, and develop new 
economic sectors.
    My research focuses on understanding how nature uses metals 
to perform difficult transformations. Obtaining a deeper 
understanding of nature's strategies may enable us to produce 
better catalytic systems for industrial processes. In each of 
my research projects, there are clear potential applications in 
bioenergy, environmental research, or human health.
    It is imperative to remember that in basic research, 
discoveries made in one field can provide profound and 
unexpected benefits in other areas. It is therefore nearly 
impossible to overestimate or predict its full impact on the 
economy or quality of life.
    In addition to my personal research, I also serve as the 
MSU Subcontract lead for the Great Lakes Bioenergy Research 
Center (GLBRC) which is administered by the University of 
Wisconsin. The GLBRC's mission is to perform the basic research 
needed to enable an economically viable and environmentally 
sustainable biofuel industry.
    Success in this area has the potential to boost future U.S. 
energy security, lower greenhouse gas emissions, and create 
jobs in rural America. To accomplish this mission, the GLBRC 
performs a broad range of research including engineering-
improved bioenergy crops, engineering microbes to convert 
biomass into biofuels, and optimizing field-to-product 
integration that is crucial to the biofuels industry. 
Essentially all GLBRC research focuses on potential 
applications, and a large fraction of our research relates to 
engineering biology whereby we harness the power of nature to 
improve plants and microbes.
    GLBRC research and technology has led to over 100 licenses 
and options, highlighting industrial relevance of this work and 
its impact on the economy.
    When performing this research, ethical considerations are 
always critical to our decisionmaking process. For example, to 
avoid competing with food production, we focus on dedicated 
bioenergy crops grown on lands not currently used for farming. 
Similarly, we give significant consideration to the plants and 
microbes we engineer, especially those that might get deployed 
or released into the environment.
    Key questions we consider include the possibility of 
engineered plants and microbes out-competing native species and 
the likelihood and potential ramifications of genes 
inadvertently being transferred to other organisms.
    Teaching on outreach is a critical mission at land grant 
institutions such as MSU. This includes ensuring its students 
and the community are educated about the important ethical 
considerations of our research. When discussing genetic 
engineering in the classroom or to the public, my goal is to 
provide information to enable people to make informed decisions 
about the risks versus the benefits.
    Interest in the biological sciences at MSU has grown 
steadily, and students are eager to gain real-world 
experiences. Their interest in hands-on research can be seen in 
the large number of applications to summer undergraduate 
research programs. Competition for these programs is intense, 
and typically there are far more qualified applicants than 
there is funding. Additional Federal funding would 
significantly strengthen these programs. Meaningful research 
experiences teach critical thinking, encourage creativity, and 
provide vital skills, thereby significantly impacting the size 
and quality of the future workforce.
    The proposed Engineering Biology Act would enhance the 
country's competitive advantage by increasing support for 
research and education and accelerating commercialization. 
Engineering biology is likely to grow in global economic 
importance, and increased interagency coordination can help 
ensure U.S. leadership. The coordination proposed in this bill 
will be especially powerful as this Subcommittee works closely 
with other authorizing committees and agencies that fund 
engineering biology research, including the NIH (National 
Institutes of Health), DOD (Department of Defense), and USDA 
(United States Department of Agriculture). It is imperative, 
however, that any new initiatives be supported with a 
commensurate level of new funding. In times of tight physical 
budgets, it is essential that both investigator-initiated and 
center-level efforts be encouraged.
    Thank you for this opportunity to testify, and I would be 
happy to answer any questions you may have.
    [The prepared statement of Dr. Hegg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. The Chair now recognizes Dr. 
Simpson.

                 TESTIMONY OF DR. SEAN SIMPSON,

       CHIEF SCIENTIFIC OFFICER AND CO-FOUNDER, LANZATECH

    Dr. Simpson. Thank you, Madam Chairwoman, Members of the 
Committee. My name is Sean Simpson. I am the Chief Scientific 
Officer and Founder of a startup biotech company called 
LanzaTech. We have developed and now commercialized a process 
that allows the conversion of wastes and residues into both 
biofuels and chemicals. Our process allows emissions from 
industry, wastes from society, and waste from agriculture to 
all equally be used in the production of fuels that reduce 
greenhouse gas emissions and increase local energy security.
    The process is biologically based. We have developed 
organisms that use gases: Carbon monoxide, hydrogen, and carbon 
dioxide as the source of carbonate energy for fuel and chemical 
synthesis. This allows us to place a conversion facility at a 
steel mill and convert the wastes inevitably produced as a 
function of steel manufacture into a low-carbon fuel that 
displaces gasoline.
    We have commercialized our process and now operate a 
facility in China where a waste stream from a steel mill is 
used to produce over 46,000 tons annually of fuel ethanol that 
enters the local market as a fuel additive. We currently have a 
number of commercial prospects. We are commercializing our 
process here in the U.S., in California, using agricultural 
waste; in Europe, using again a steel mill waste; in India, 
using a waste stream from an oil refinery; in South Africa, 
using waste from ferroalloy production; and in Japan, using 
municipal solid waste. In each case our biology converts these 
waste streams into fuel and chemicals that are used in everyday 
life.
    Through the use of engineered biology, we are able to not 
only produce fuels but also an array of important commodity 
chemicals. By converting these waste streams in high volumes 
into commodity chemicals, we're able not only to add much 
greater value to the resources we can process but also achieve 
carbon capture and sequestration in everyday materials. Imagine 
a world where carbon can be captured and fixed into everyday 
plastics, rubbers, and other materials. That is the opportunity 
offered by engineered biology.
    In our case, we've very excited by the prospects of this 
field and have invested heavily in the opportunity to leverage 
engineered biology technologies in order to not only improve 
the profitability but also the efficiency of our process. We're 
also enormously excited by the recognition given to engineered 
biology in the Act. One thing we would encourage, however, is 
that the Committee recognizes that not all resources that can 
be processed by biology come from a biological origin. We 
represent a process whereby we can take waste streams produced 
by industry that maybe start their life as coal but are used in 
industry to produce, say, steel that are emitted as a waste 
that can then be converted by biology into a sustainable fuel 
or a sustainable chemical. Thereby, we are able to achieve a 
degree of circular economic growth not only here in America but 
throughout the world through technologies developed here 
domestically by biological scientists.
    With that, I'd like to thank the Committee and look forward 
to your questions.
    [The prepared statement of Dr. Simpson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. The Chair now recognizes Dr. 
Zoloth.

                 TESTIMONY OF DR. LAURIE ZOLOTH,

          MARGARET E. BURTON PROFESSOR OF RELIGION AND

          ETHICS, AND SENIOR ADVISOR TO THE PROVOST FOR

        PROGRAMS IN SOCIAL ETHICS, UNIVERSITY OF CHICAGO

    Dr. Zoloth. Chairman Stevens, Ranking Member Baird, and 
Members of the Subcommittee, my name is Laurie Zoloth. I'm 
professor of religion and ethics and senior advisor to the 
provost in social ethics at the University of Chicago. And I 
want to thank the Committee for asking me to testify about the 
ethical issues that arise in the research and the development 
of engineering biology and for inviting a scholar of religion 
and moral philosophy to your deliberations about science. Now, 
I'm going to describe the ethical challenges that will surely 
be a part of this research, but I want to say at the beginning 
of my testimony that I am very supportive of this basic 
science, intrigued by the stunning possibilities it will offer, 
and very grateful that your Committee is seriously considering 
what I believe is a very strong bill.
    When researchers, however, talk about genetics, Americans 
begin to worry about probable ethical problems. The first are 
the usual questions that genetic alteration of any sort in the 
natural world raises. We have begun to think of our DNA as 
fundamental to our identity. It is in our DNA, is a common 
phrase to describe the values we think are a part of our being 
as Americans. So, any changing of this DNA code raises issues 
of what can be changed, who should decide, and who has control 
over the power to make such changes.
    Now, you can point out, as many of you did, that humans 
have been breeding plants and animals for millennia and that 
engineering biology is not, in principle, different. But still, 
we like to think of nature as fixed, as perfectly in balance 
and even normative or morally good. And we worry about the 
threat of the sanctity of the natural world in this way or the 
essential dignity inherent to intact beings to whom we owe 
respect.
    Safety concerns are also important. Are the projects safe 
when used as intended? How dangerous are they when used in 
unintended ways and how likely is that to occur? How likely are 
mistakes? If harm occurs, is it reversible? And genuine concern 
is raised around the issue of informed consent. When biological 
engineering projects are intended to affect whole populations 
or whole geographies, will the benefits and burdens be 
distributed equally within the population? And if not, will the 
benefits accrue disproportionately to those already 
disadvantaged and burdens to those already disadvantaged. And 
to the extent that those new technologies create burdens for 
some, will it be accompanied by offsetting policies, whether 
economic or social, that ameliorate those effects?
    What distinguishes these technologies that affect the 
genetic structure of beings is how it alters the very 
biological technologies that affect our relationship to 
humanity itself and to nature itself. And Americans are 
committed to the idea of equality regardless of the situation 
of one's birth. And while we know that genetic lottery can 
always be unfair, we don't want it to be fixed. We worry about 
imbedding the choices we make today across generations. And 
linked to this concern are basic ethical questions of justice, 
justice and the choice of research goals, in the way that test 
as hypothesis, and finally the distribution of the social goods 
that emerge from the research.
    But a new sort of problem emerges when researchers talk 
about making entirely new de novo creations or making synthetic 
chemical versions of DNA or creating entirely new living 
entities, in essence, using a string of chemicals to make new 
life.
    This is in principle different from altering already-
existing organisms. Here we confront issues of mastery, 
control, and of course profound and unknowable uncertainty. And 
here as well, we're going to disagree on issues that can be 
fairly called ontological and theological.
    Ought we to tremble when we cross such a threshold of human 
knowledge? Of course we should. Are we going to worry that 
we're going too far and too fast? Of course. But we have ways 
to ameliorate these questions.
    Ethics asks the question, what is the right act and what 
makes it so? It's not a question that emerges from science 
itself. But in the past, ethicists have been asked to think 
about science projects. When the NIH proposed the mapping of 
the human genome, it gave 5 percent of its budget to work on 
the ethical, legal, and social implications of the Human Genome 
Project. And the ELSI (Ethical, Legal and Social Implications) 
Human Genome Project showed that scholars of humanities and law 
are very eager to think about science. What is needed now are 
incentives for scientists to understand humanities, law, and 
policy questions. Young scientists will choose the virtues that 
guide them very early in their careers and need to be sure that 
they see being honest and humble and just is part of what it 
means to be a good scientist. And this means they must study 
historical debates about ethics and learn the complexities of 
competing moral appeals. We also need to educate bioethicists, 
I might add, before they opine on the ethical questions that 
such science raises.
    We need to regulate this research, and we need to figure 
out how to do that. All such research will have enormous 
impacts on the human future, and that's why we need the 
engineering biology we've heard today, for our future has 
serious challenges, a change in climate, a rising need for 
energy, and a growing, hungry population. And thus we need both 
new technologies and new social policies to regulate them.
    We know our world is very closely connected in complex webs 
with the smallest form of life. And engineering microorganisms, 
new vectors for disease, all moving at the microscopic level, 
and all these can be critical to human survival.
    Now, the National Academies have been able to structure 
some interesting new guidelines, but at stake is how they are 
enforced and the regulation. And consideration of whether and 
how engineering biology can proceed ethically cannot only be a 
discussion among academics or science experts because these big 
engineering projects are intended in many cases for widespread 
and self-sustained use. Community consent processes have to be 
regulated as well. Ideally, mandated citizen stakeholder 
engagement should be part of every project that's publicly 
funded. And these engagement sessions should start at the 
beginning of the projects and should involve a wider reach than 
has previously been imagined, including members of trade 
unions, parent/teacher associations, rural communities, and 
religious and cultural groups.
    I suggest that other countries have developed public 
discussions about this phase of their science and more 
structured leadership about ethics as well. Being a leader in 
engineering biology is a tremendous responsibility. It will 
mean leadership in ethical, social, legal, and environmental 
research as well as in science research. It'll mean creating a 
deep and sustained relationship with the larger international 
research community that already is frankly ahead of us.
    In my testimony, I've recommended a few things, a new Ph.D. 
program in ethical decisionmaking, sources or moral appeals, 
the history of ethics and science needs to be funded along with 
programs for the science itself so the next generation of 
scholars in ethics can be trained.
    Two, jointly administered Ph.D. and M.A. cohorts will train 
scientists in the humanities and social science and humanities 
scholars in science.
    Three, funding for environmental impact studies in every 
project that propose any public use.
    Four, public meetings to think carefully about projects 
that are more successful if we can expand our ideas about 
democracy and inclusion. Our American capacity for democratic 
decisionmaking can be an important part of our scientific 
leadership plan, but funding for widespread education and 
inclusion must reach far beyond the academy.
    And finally, norms and regulations created by such forces 
as the National Academies must be supported by administrative 
regulations that Congress establishes, along with consideration 
to the creation of a national oversight committee, both in the 
early stages of research and beyond.
    The economy, the environment, and the human world in which 
we live is shaped by biology, our history, our needs, our 
limitations, even our imagination. At stake is how we as a 
society will be able to respond to this new challenge, and when 
we respond, how we can do so with both courage and thoughtful 
humility. Other countries have already matured efforts both in 
engineering biology and in the public discussions about their 
use. Your efforts will be central to our American response.
    Thank you for this bill, and for having the wisdom to 
support and the courage to lead.
    [The prepared statement of Dr. Zoloth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. Thank you to our expert 
panel and our witnesses who've joined us today. This is one of 
the privileges of this job, which is to bring forward your 
voices and your testimony.
    At this point, we will begin our first round of questions. 
And the Chair recognizes herself for 5 minutes. In that vein, 
allow me to say that your expert testimony means a lot to our 
Committee and our work. As somebody who has a master's in 
philosophy and spent a lot of time in bioethics, it is 
certainly a delight to have a philosopher in the room helping 
manage some of the bigger questions and implications as it 
pertains to biotechnology.
    Dr. Hegg, according to Dr. Carlson's testimony, 
biotechnology already makes up at least 2 percent of the total 
U.S. GDP, and it is expected to surge in the coming years. And 
we recognize what we need to do with the NAICS codes, by the 
way.
    Areas that have greatly benefited in terms of job creation 
areas, meaning our regions across the United States, tend to be 
on the coast, San Francisco Bay Area and Boston. And not 
surprisingly, much of the academic research also tends to be 
concentrated in these areas along with engineering biology 
student populations that become part of the bioeconomy 
workforce. However, the needs and opportunities and brain power 
are significant across our Nation. What role, Dr. Hegg, can the 
Federal Government play in facilitating the growth and 
expansion of research centers and industry to other areas 
across our country including the Midwest?
    Dr. Hegg. Well, I think that as I noted in the testimony 
that one of the most important roles the Federal Government can 
play is to continue to support basic research at multiple 
levels. I specifically talked about the undergraduate level and 
the importance of this hands-on research that students can 
obtain and the real-world knowledge that that can impart and 
how that can then be transferred to not only a thriving 
workforce but also one that has the skills necessary to compete 
in today's global economy.
    At the same time, I think that increased level of support 
for basic research can also greatly impact graduate students, 
graduate studies. These are the people that go on and 
ultimately start their own companies, perform their own 
research, and lead to the technologies which are the beginning 
of new economic sectors.
    So in short, I would say simply continuing to support basic 
research and especially understanding the role that the 
undergraduate as well as the graduate students play.
    Chairwoman Stevens. Thank you. And Dr. Solomon sort of 
mentioned this as well in his remarks, but I'd love to hear 
from you, Dr. Hegg, on how well-suited is our training 
infrastructure is in the United States to prepare the workforce 
for a sustainable bioeconomy?
    Dr. Hegg. I think that our infrastructure is actually 
pretty good. I think we have the infrastructure that we need. I 
think we have a faculty, people who want to teach and who can 
do what we need to do.
    What perhaps is lacking sometimes is the funds to support 
their efforts. And for a relatively modest investment, we can 
have a huge influence on the students, both undergraduate and 
the graduate level. We heard about IGEM, which is a really 
important program and has continued to grow. And I now believe 
it has teams from over 80 countries. That is just one example 
of students who want to get into this field and who want to 
solve real-world problems.
    So I think we have the infrastructure. We just need to make 
sure that we continue to support it so that it can live up to 
its potential.
    Chairwoman Stevens. Thank you. I have one last question but 
I also have something that I wanted to say which is as someone 
who spent their career in manufacturing innovation, focused on 
the skills gap, you know, certainly very inspired by the 
programs and the work that you all are leading from, you know, 
an early stage and some of the continuity that we need to see 
and workforce training.
    I think if there's, you know--the last question I might 
have would be just around some deep thinking around any gaps 
that we might have in educational programming or development? 
Anything we might be missing in terms of workforce training, 
particularly if there are jobs going unfilled. We're all quite 
familiar with the demand and oftentimes the dogfight for 
technology talent. And it's multi-disciplinary, which poses 
some challenges. So if you have anything else to add on that, 
I'd certainly--we'd love to hear that.
    Dr. Hegg. I honestly cannot think of any obvious gaps that 
we have. I think certainly at the large research institutions 
that I've been involved in, we're very broad and importantly, 
the technologies and the research that we're doing often 
impacts multiple areas. And you can see that for instance in 
some of the crops that we're working on. They can be important 
not only as bioenergy crops but also important for forage crops 
as well.
    And so you can see these multi-use research opportunities, 
and I think we do a pretty good job. Thank you.
    Chairwoman Stevens. Great. Thank you. I now recognize Mr. 
Baird for 5 minutes.
    Mr. Baird. Thank you, Chairwoman. And again, I appreciate 
this. My difficulty's going to be trying not to delve too deep 
in some of the conversations that we've had but I'll try to 
avoid that.
    Dr. Solomon, you mentioned several potential applications 
for your research in the gut microbiome of cattle and other 
livestock. Could you elaborate on that? Because I'd like to, 
the next step after you discuss the process, then I want to 
know what kind of challenges you foresee in translating your 
research into products and solutions.
    Dr. Solomon. So just to recap, I work with microbes that we 
can find in cattle, sheep, and other ruminants and hindgut 
fermenters. What they do is they break down the ingested plant 
material and help other microbes digest that in a way that 
allows them to provide nutrition to the host animal.
    They also produce a number of compounds that essentially 
control which microbes are present, and what they do and the 
specific identities of those microbes and how many of them 
there are lead to have an impact on how healthy an animal will 
be. And so my research tries to understand this and tries to 
understand how to control this.
    Specific challenges that I see is that as we've discussed 
right now, the implications of that research, at least from 
that dimension are very clearly agricultural. However, the way 
that our funding system is set up, for example, different 
agencies, they tend to prioritize technologies at different 
levels of readiness. And so fundamental basic science such as 
this can be difficult to fund in this environment.
    And so trying to have a more coordinated framework that has 
an eye toward these more long-term outcomes I think would be 
very beneficial.
    Mr. Baird. Thank you. Second question would relate to gene 
editing and the gene editing technology. This is for you, too, 
Dr. Solomon. I'm sorry about that but anyway. And it relates to 
cross-breeding and hybridization techniques that we've used for 
years in agriculture. So how does that relate to what we're 
doing with this gene editing technology in your view?
    Dr. Solomon. So what I think gene editing allows us to do 
is that it allows us to do these things more effectively and 
more rapidly than we've ever been able to do before. I think in 
the past, biological research has enabled us to do these things 
in a controlled fashion. However, at the end of the day, you 
get what you get. With the techniques that we have available to 
us, we can actually custom print DNA sequences, and we can 
actually do this with such precision that these advances can 
happen in a matter of weeks, months, as opposed to years which 
is what has happened in the past.
    Mr. Baird. So we're running close on time. So the one last 
question, if I may----
    Chairwoman Stevens. Certainly.
    Mr. Baird. I might have each one of you respond briefly to 
the idea that the United States and Europe does have some 
differences in terms of their interpretation of regulations and 
policies relating to biotechnology. Could you just quickly give 
us a feel for that, how that might impact some of the products 
that we could produce from these processes?
    Dr. Carlson. Well, just to start, it will have an impact, 
and certainly some of the companies that we have invested in 
are seeing a more challenging regulatory environment in Europe 
than in the United States. And that's of course because the 
precautionary principle is built into the European Union's 
fundamental structure. And they have to be cautious. They have 
to move very slowly. And that will impact our ability to sell 
to them, but also it will slow them down. You know, there are 
companies leaving Europe simply because they can't get anything 
done and have no hope of selling what they make there.
    Mr. Baird. Thank you. Dr. Solomon?
    Dr. Solomon. I mean, I'm not sure I have much else to add 
beyond what Dr. Carlson said, other than--I think in this new 
and exciting space, I think that we have not agreed on what 
definitions are. And so for example, if we take GMO 
(genetically modified organism), what would be GMO and safe in 
the U.S. might not be GMO and safe in Europe and vice versa. 
And I think until we harmonize and agree on those definitions, 
there's always going to be some friction as to what can and 
cannot be sold.
    Mr. Baird. Dr. Hegg?
    Dr. Hegg. I think one of the most important things that we 
can do to help alleviate this problem across the globe is to 
continue to provide the information that people need to make 
informed decisions. And I think that's where higher education 
can be critical. And so I think we need to continue to do it 
here in this country and I think it also probably needs to be 
done for instance in Europe as well. I think many of the 
decisions that are being made are sometimes made by people who 
are ill-informed about the subject matter at hand. So I think 
education will be critical across the globe.
    Dr. Simpson. While there are clear differences in terms of 
opinion and legislation regarding genetically modified 
organisms between Europe and the U.S., the area that actually 
impacts us as a company commercializing biotechnologies, is for 
example regulations around what constitutes a renewable or low-
carbon fuel. For example, in the U.S. the renewable fuel 
standard dictates what a biofuel may be produced from. It 
basically says that it has to be made from a plant material. In 
Europe, rather than dictating what a fuel should be made from, 
legislation now seeks to define what the outcome of the 
production of the fuel should reflect, i.e., a degree of carbon 
reduction or carbon emission reduction.
    And so now in the U.S., legislation in this field is 
somewhat dictatorial in terms of defining what resources can be 
used, and in that sense, in my view, is somewhat anti-
innovation because it takes away the power of innovators to 
develop new ideas with new resources to achieve the outcome 
that I think legislators had in their mind. Whereas in Europe, 
the legislation is somewhat more technology-agnostic and so is 
leaving the field more open for innovators to develop new ways 
to harness available, lost-cost resources for the production of 
renewable or low-carbon fuels. Thank you.
    Dr. Zoloth. There are two reasons why it's a different 
climate in Europe. One of them is the precautionary principle 
that grew out of German romanticism and German idealism that 
says don't do anything unless you can prove that it won't make 
the world worse. And Americans don't like that principle. 
American philosophers are pragmatists, and we think that the 
way that things are now is also bad. And so making an 
improvement is just a matter of going forward, in either a 
world with improvement or a world without. So we use a risk-
benefit analysis, a very different kind of philosophy.
    But additionally, Europe is tremendously affected by the 
Shoah, the Holocaust, where the German scientists, who were in 
the lead especially in the chemical industry, saw their, 
despite their technological prowess, they were ethically 
bankrupt. And of course, that tragedy means people are very 
cautious, especially in the E.U. in general and German as 
leaders in particular.
    Now, the U.K. in looking at this sees the E.U. environment 
as so potentially restrictive that the House of Lords had a 
committee hearing very much like the one you're having here 
today, that worried about this same question. How can the 
British scientists move forward when they're very close to a 
restrictive atmosphere in Europe? And the same conversation 
happens in the U.K. as it does in the United States relative to 
the much more restrictive environment in the E.U. And that's 
played out in terms of the use of GMOs, GMO crops, which have 
been banned in many cases in the E.U. and their trading 
partners but not in the United States.
    So that comes at a very different history, and I think that 
history is something we can build on.
    Mr. Baird. Thank you. I yield back.
    Chairwoman Stevens. The Chair now recognizes Mr. Foster for 
5 minutes.
    Mr. Foster. Thank you, Ms. Chairman, for having this 
hearing. There appear to be two major threads in bioengineered 
products. One of them is low-valued fuels which will rely 
importantly on things like a carbon tax, price on carbon 
emissions. The second one is unique, high-valued products. As 
an example of this, I think of Dr. Carlson's testimony. You 
were talking about a modified PMMA (polymethyl methacrylate) 
with better properties than normal Plexiglas that might 
uniquely be able to be produced through biochemical means.
    And so my questions there is I guess first to Dr. Simpson. 
Assuming you have an optimal price on carbon emissions rather 
than one targeting specific crops, what is the range of the 
price on carbon to which the state-of-the-art in biotechnology 
would allow you to be commercially viable with a simple carbon 
price alone? How close are you right now?
    Dr. Simpson. So right now, we are operating commercially in 
an environment where there is no price on carbon. So we produce 
fuel ethanol in China. There is no price on carbon in China, 
and we're able to operate entirely viably. The plant that we 
constructed has a 3-year payback period. So this allows us--
because of the inputs we're able to leverage are themselves 
very low cost. Our advantage because they are low cost, they 
are non-commodity, and they're found in a single location. 
They're not food, and they're essentially industry waste with 
no other value other than to be burned as power. We're able to 
produce----
    Mr. Foster. Oh, so they're not for example just pure carbon 
dioxide? They have a significant energy content in carbon 
monoxide or hydrogen or similar.
    Dr. Simpson. Exactly.
    Mr. Foster. OK. So that those are not going to be available 
on as wide a scale as carbon dioxide would be, for example?
    Dr. Simpson. Carbon dioxide is certainly available in 
extraordinarily high volumes. But carbon dioxide can also be 
leveraged in the context of technologies like electrolysis 
which would allow you to produce hydrogen from, for example, 
sustainable power to leverage carbon dioxide. However, I would 
say that the resources that can be converted into carbon 
monoxide and hydrogen are broad and widely available.
    Mr. Foster. Do you have an estimate of what fraction of 
carbon emissions could be--if you could capture 100 percent of 
energetically viable carbon emissions----
    Dr. Simpson. Certainly. So if we----
    Mr. Foster [continuing]. What fraction is that?
    Dr. Simpson. If we were able to capture, for example, all 
the emissions from the steel industry, all the emissions from 
refineries and convert all available agricultural residues, we 
estimate that we could produce over 700 billion gallons of fuel 
annually.
    Mr. Foster. And what----
    Dr. Simpson. To put that into context, the current global 
production of fuel ethanol sits around 26 billion gallons. So 
this would allow us to displace something like 33 to 35 percent 
of global transport fuels using emissions or wastes from 
industry, society, and agriculture.
    Mr. Foster. And so I guess Dr. Carlson, can you say a 
little bit about the outlook for specialty chemicals that are 
uniquely provided by biochemical means?
    Dr. Carlson. I can. It's spectacular. One thing that I 
didn't point out during the first part of my testimony is that 
roughly $100 billion in biochemicals are already out there in 
the market. That's somewhere between 1/7 and maybe a quarter of 
the total chemical sales in the United States. So already 
biochemicals are a massive contributor to the chemicals 
industry, and we just don't know it because we don't measure 
it.
    I'd really like to have a better understanding of what that 
number is because those are chemicals that are as best I can 
tell just already out-competing petrochemicals on price and 
performance. And then as we learn to better engineer 
materials--whether that's concatenating unique unichemical 
operations that enzymes can perform naturally to make new 
chemicals or as our company is doing now to design enzymes that 
have never existed before that create chemical operations that 
have never existed before to manufacture compounds in biology 
that have never existed before but that have been sought for 
quite some time--the world is going to start to look very 
different.
    So the set of chemicals that we can make right now using 
synthetic chemistry is actually quite small compared to what 
we'd like to make, and the universe opens up as we learn to 
make those using biology.
    Mr. Foster. Yes. And I guess one of the things that's 
opening that up is the whole CRISPR-Cas9, you know, revolution. 
I guess I'd like a shout-out to the--tomorrow we're going to 
have Jennifer Doudna, the inventor or the co-inventor of the 
CRISPR-Cas9 system here in Congress for an R&D caucus briefing 
to staff members. So any staff members interested, it's I think 
at 10:30 tomorrow, along with the Biophysical Society having 
that.
    And if I could just close quickly, the whole issue with 
human genetic engineering is something that has been--I think 
we had our best-ever attended hearing of the Science Committee 
when we brought up--we had Jennifer here to talk about human 
genetic engineering. I think it was ironic that the National 
Academy study, the second one, was the venue at which the 
Chinese announced that they had genetically engineered a child. 
So this has gone from sort of fringe speculation to something 
that exists that we have to deal with.
    So I guess, if I could ask you one question, is there any 
alternative to very intrusive international regulation to 
prevent the abuse of things like human genetic engineering or, 
you know, bioweapons?
    Dr. Zoloth. Genetic engineering for reproductive purposes 
and bioweapons are two different kinds of discussions. But I 
can just say that nearly everybody else on the planet, except 
for one rogue scientist in China, was abiding by a very 
carefully constructed moratorium crafted by the National 
Academies of three countries. And that moratorium was honored 
but not fully understood, clearly by this man. And so we have 
yet to see those babies. So it's unclear how real the story is. 
But let's just say it is. He was promptly disciplined by and 
carefully disciplined by the scientific community of China and 
the ethical community of China.
    So it did show that if you violate the moratorium, there 
would be significant repercussions. And people who gave him 
advice are also being reviewed very, very carefully and strong 
sanctions will be taken I think in those cases and certainly 
strong academic approbation will be directed to the people who 
gave him that terrible advice or didn't disclose what he was 
doing.
    Is there anything to prevent this? Reproductive uses of 
CRISPR technology always needs a woman to agree to become 
pregnant to give birth to a child at tremendous risk. There's 
no way to do that safely. There's no way to construct a phase 
one clinical trial with safety. And so ethicists have long 
opposed this so safety standards could be demonstrated much 
more carefully. And that's a long way off.
    For biotechnology for weaponry is a much more sobering 
discussion. I know Dr. Carlson has spent a lot of time thinking 
about that. We want scientists to be good not only technically, 
but morally. My job as an ethicist is to train them to know 
that you ought never do harm with your science and that every 
gesture of science is a profound moral gesture as well as an 
interesting scientific gesture. And it's my hope, my fond, 
optimistic hope, that if you train someone to be moral and 
ethical and responsible and responsible to his or her 
colleagues as well, they would never think about using their 
technologies for nefarious purposes. But these are powerful 
technologies, and they're self-sustaining. And careful 
consideration has to be put in place in addition to ethics 
training for the regulation of those technologies.
    Mr. Foster. Yes. And unfortunately, I think one of the 
lessons I take away from computer viruses is that everything 
bad that can be done has been done with computer malware. And 
the fact that there's a very small footprint for these 
laboratories now and shrinking footprint is a cause for 
concern. You know, I urge all of my colleagues to have the 
classified briefing on the technology.
    And I am past my time so if--all right.
    Chairwoman Stevens. You can do a second.
    Mr. Foster. OK. So we're having a second round?
    Chairwoman Stevens. Yes.
    Mr. Foster. Great. Wonderful. Yield back.
    Chairwoman Stevens. Yes, we'll go. We'll do it. The Chair 
now recognizes Mr. Gonzalez for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair, and thank you 
everybody for being here today. I'll get to you, Dr. Carlson. I 
have a similar line of question. I saw your hand up.
    So just thank you everybody for being here. The topic 
discussed today is of great importance to Northeast Ohio. I 
share Madam Chair's sentiment that we need more science and 
technology development in the Midwest where I'm proudly from. 
Research in the polymer sciences has allowed the University of 
Akron to become a world-renowned institution in this field. 
From the invention of cheap spectrometers to measure the amount 
of nutrients responsible for algae growth in local water 
systems like Lake Erie to development of materials to preserve 
proteins in medicine, these are just two examples of the 
incredible research and development that the University is 
conducting but very important.
    So when I think of these technologies, I kind of think of 
three things or three questions essentially. One, are we 
leading? Two, how quickly can we commercialize? And then three, 
how are we on security and maintaining standards across the 
world?
    First, Dr. Simpson, before we get into the bioweaponry, 
carbon capture. Can you talk briefly about sort of what percent 
of carbon you are able to capture and repurpose? And then how 
your technology has developed over time, so kind of when I 
started it looked like this and now we are able to do the why 
if that makes sense.
    Dr. Simpson. So when we started our company in 2005, at 
that time our technology literally existed in a test tube. And 
over the intervening years we've developed not only the biology 
but the engineering allowing gas fermentation and now offer as 
a commercial package, a full industrial process allowing the 
conversion of carbon monoxide, carbon monoxide-hydrogen, and 
carbon monoxide-hydrogen-carbon dioxide gas streams into fuels 
and chemicals. What does this mean physically? It's a facility 
that literally is like putting a brewery on the back end of--
for example a steel mill comprising multiple reactors that 
stand around 100 feet high and several feet in diameter in 
which gases are converted microbially to, in the first 
instance, fuel ethanol, but subsequently we'll be able to 
produce chemicals in those same facilities.
    In terms of percentage of carbon, it really depends on the 
input gas. The more hydrogen we have in our gas, the more 
carbon in that gas stream we fix. For example, we are now 
constructing a facility that converts a waste stream produced 
by an oil refinery in India. In that process, 50 percent of the 
carbon in the product comes from CO<INF>2</INF>. At a steel 
mill, there is no hydrogen. Our process simply converts carbon 
monoxide into fuels and chemicals. And in that case, we convert 
carbon monoxide.
    Mr. Gonzalez. Got it. And then you mention carbon doesn't 
have a price in China. And quickly, if we did price carbon, 
what would that do to your business model?
    Dr. Simpson. That would greatly accelerate our business 
model, I'll say that. I mean, just to be clear, one cannot 
raise money on legislation that doesn't exist.
    Mr. Gonzalez. Right.
    Dr. Simpson. So as a company, we are commercializing a 
process to build commercial, commercially viable plants today 
in the current legislative environment, and we are without 
reliance on a carbon tax. A carbon tax would be a wonderful 
thing for this entire industry, but we cannot raise money on 
that and we are not commercializing our process on the basis of 
its existence.
    Mr. Gonzalez. Got it. And then switching to Dr. Carlson, so 
it looked like you had your hand up on the bioweaponry. I just 
want to turn you loose. So what were you going to say? Go for 
it.
    Dr. Carlson. Well, I was going to observe that science is a 
human enterprise full of humans, and humans are going to do 
everything they have in science that they've done throughout 
history. And they're going to make bad decisions. They're going 
to misuse the technology.
    My read on what happened in China is that the approbation 
was not uniform. There was some celebration by parts of the 
government before other parts of the government shouted them 
down. And I think what I want to observe there is that whatever 
standards we think we hold ourselves to are not the same 
standards, not the same decisionmaking processes that other 
countries have. And they're going to go off on their own 
because they can.
    Mr. Gonzalez. Yes. Thank you. I tend to agree. When it 
comes to these sorts of technologies, I share that sentiment. 
Sure, there were some who later on maybe said, hey, we 
shouldn't have done this. Frankly, I don't believe that's 
something we can trust and put our faith in going forward. So I 
yield back. Thank you.
    Chairwoman Stevens. It's clear the Science Committee is the 
best-kept secret in Congress.
    Mr. Gonzalez. It's true.
    Chairwoman Stevens. And with that, the Chair would like to 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Chairwoman Stevens and Ranking Member 
Baird, for hosting this discussion. I think it's so very 
important. Congratulations to you, Chairwoman Stevens, on 
assuming this leadership of a Subcommittee that bears great 
relevance to the strength and future of this country. And to 
the panel, what a great group of individuals who are sharing 
great intellect. So thank you for joining us today.
    Bioscience and biotechnology are exciting fields that offer 
the promise of life-changing applications across many fields. 
The Federal Government is uniquely positioned to lead the way 
in investing in high-impact research and partnering with 
universities and industry to innovate. These fields are moving 
forward in exciting ways in my district. For example, the NSF 
funded a research experience for undergraduates at Rensselaer 
Polytechnic Institute, RPI to most of us. That allowed RPI to 
engage a diverse cohort of students in bioengineering and 
biomanufacturing research projects with an intellectual focus 
on engineering, biological systems, and biomanufacturing 
related to biomedical, chemical, and/or biological engineering. 
This integrated training experience guided undergraduate 
students recruited from underrepresented groups from non-
research-intensive schools through a research project while 
also helping them understand how they could pursue an 
engineering career. I'm also proud to have RPI part of the 
National Institute for Innovation in manufacturing 
biopharmaceuticals, a public/private partnership to advance 
U.S. leadership in biopharmaceuticals. This partnership, led by 
the University of Delaware, is advancing U.S. leadership in the 
biopharmaceutical industry fostering economic development, 
improving medical treatments, and ensuring a qualified 
workforce by collaborating with educational institutions to 
develop new training programs matched to specific biopharma 
skill needs.
    The Federal Government should continue these critical 
investments that strengthen our future workforce while also 
funding important research in these fields. We must not let the 
U.S. fall behind in our commitment to lead in scientific 
exploration and technology development or risk taking a back 
seat to nations which do make such innovation a top priority.
    So to any and all on the panel, one synthetic biology 
breakthrough that got a lot of attention 2 years ago is 
synthetic spider silk, which researchers at the University of 
Cambridge created to mimic the strength, stretchiness, and 
energy-absorbing capacity of real spider silk. The same year a 
California-based startup called Bolt Threads debuted its own 
bioengineered spider silk men's tie. They now sell an entire 
clothing line. They started, by the way, with SBIR (Small 
Business Innovation Research) funding from the National Science 
Foundation.
    What's the most unexpected or most weird application of 
engineering biology that any of you has encountered?
    Dr. Carlson. Well, there are many of them, actually. And I 
could, you know, go on for hours. I don't think you want me to 
do that here but----
    Mr. Tonko. Yes, just a sampling, if you could quickly.
    Dr. Carlson. I'd like to just shout out to the Microsoft 
digital DNA information storage project that I am fortunate to 
work on as a consultant. So rather than storing information on 
magnetic tapes or CDs or in flash drives, that will soon become 
impractical given the amount of information that we're 
generating on a daily basis and need to store, whether it's 
photographs or government records or, you know, your Facebook 
profile, whatever that may be. And we need something else. And 
it turns out that biology has provided us with a beautiful and 
perfect storage media, that is, DNA. We can now read and write 
DNA. When they asked me to join this project, because I had 
been around for a while and Iknow some things about reading and 
writing DNA, and the economics and the pace of that, I thought 
itwas a bit of lark. I thought, sure. It's a nice consulting 
gig and you know, I'll learn some things. I can hang out with 
some smart students. A couple of years later, it's going 
incredibly well. It's moving very rapidly, and I'm convinced 
that we not only will do this, we must do it. We will be 
changing our entire data storage industry over to look 
something like biology because it works. And you know, an 
entire data center storing a good fraction of the internet can 
be the size of a sugar cube of DNA. And that is opening my mind 
to all kinds of new applications because we can also now 
compute directly on that DNA using other molecules which has 
been a goal, sort of a science fiction story for a long time. 
But it's now a reality in that group. And I'm having trouble, 
you know, even just conceiving of the limits of that once we 
get it going.
    Mr. Tonko. Madam Chairwoman, can I just ask that the other 
four just give us an example, please? I'm out of time, but I 
would love to hear from them, please.
    Dr. Solomon. OK. So an example that I think is really 
fascinating, as of now I'm not aware if it's actually been 
commercialized yet, but there's been some talk about using 
plants as sentinels in public spaces. And so for example, we're 
increasingly faced by a number of threats, both biological and 
explosive. However, plants have an ability to naturally breathe 
and respire. And so they can sample--they beautify public 
spaces. They can sample the air, and they can sample these 
particles. And in some cases, they can actually tell us if a 
threat is possible.
    I think it's amazing to imagine that you could walk in the 
airport and rather than going through the very elaborate TSA 
screening that you go through right now, you just walk by a 
tree. It makes the space look beautiful, and if there's 
something wrong, it will alert you.
    That's one of the more wacky things that I think I've come 
across.
    Dr. Hegg. I don't know if I would--it's certainly not wacky 
but it certainly impresses me a lot and that is trees, again, 
keeping on that theme. These are trees where lignin, which is a 
structural polymer of the tree, has been engineered to break 
down very easily when under certain conditions. And so it still 
holds its structure and the tree is still happy and healthy. 
Except when we put it under certain conditions, then this 
complex polymer can break down easily into its components which 
can then be--not only then does that release the sugars and 
allow us to make fuels but also the lining itself can be used 
to make various polymers or fuels as well. And this has 
applications not only in obviously the biofuels but also in the 
pulp and paper industry.
    Dr. Simpson. One area that I've always been fascinated by 
is the ability of biology to accumulate the things that it 
requires for life as it goes through environments and how we 
can use that to recover and recycle material. So there are now 
companies that use the ability of microbes to adhere or absorb 
specific high-value elements, like platinum or gold or others 
to actually recover the precious metals from electronic waste. 
So going forward, when one discards a phone, those printed 
circuit boards will be ground up and the precious metals 
contained therein will be recovered by microbes that have the 
specific ability to I guess attract those metals so that we can 
recover them and recycle them and reuse them.
    Dr. Zoloth. So one serious and one amusing example. So the 
serious one is that the most rapidly growing disease is dengue 
fever. And malaria, for instance, that we had been able to 
address malaria and change the death rate from 1 million a year 
to 1/2 million a year has stalled. And the reason these 
diseases are hard to fight is because we're using 19th century 
tools, right? So there's nothing--bed nets are failing a little 
bit. The vaccines were hard to do. But genetically engineering 
mosquitos so that the population changes holds enormous 
potential for very intractable diseases. These are called gene 
drives. And I'm very interested in them because they have 
tremendous, interesting ethical issues. But also they could 
really transform how these intractable diseases can be 
addressed.
    And why this is important for Americans is because the 
climate's changing. In a city like Los Angeles, my hometown, 
Los Angeles, or all of Florida has a lot of mosquitoes and has 
anopheles mosquitoes which do carry malaria, right? So malaria 
used to be one of the leading causes of death in this country, 
and we managed to eliminate it with 19th century tools, 18th 
century tools. Now we're going to need 21st century tools, and 
these genetically engineered mosquitoes represent that kind of 
impulse.
    And the funny example is about cotton. You know how bread 
mold makes a gray, furry sort of mat on your--but if you could 
transform the yeast as the French have done and put in a little 
genetic cassette that makes the fibers cotton instead of furry 
gray stuff, you can make sheets of cotton. Cotton's a very 
difficult crop to grow. It's a big plant, small, little tufts, 
and it uses 50 percent of all the water used in agriculture. 
But if you could make cotton in sheets by yeast instead of in 
plants, you could save enormous amounts of water. It would be 
better for the environment. And they make very pretty clothes, 
I must say.
    Mr. Tonko. Thank you, Madam Chairwoman. I guess what 
appears silly or far-fetched at times can bear great relevance. 
With that, I yield back.
    Chairwoman Stevens. Absolutely. Thank you. The Chair would 
now like to recognize Mr. Marshall for 5 minutes.
    Mr. Marshall. Thank you so much, Chairwoman. You know, as a 
biochemistry major from the Big 12 basketball champion, Kansas 
State University, this biotechnology is always quite intriguing 
to me. And perhaps nothing has been more impacted than the 
ethanol and biofuels industry. So it's certainly something I've 
kept a close eye on.
    I'm amazed what we can do today. We can grow a bushel of 
corn with 40 percent less land and 50 percent less water than 
we used to. And I'm impressed the impact that ethanol has made 
on the United States. We've decreased greenhouse emissions by 
about 43 percent. We have the potential to decrease it by 76 
percent. Cellulosic fuel has the potential to decrease 
greenhouse gas emissions by 100 percent. I've been told that 
it's the equivalent of removing 124 million cars from the road. 
So I'm pretty proud of what the ethanol and the biofuels 
industry has done.
    But despite this, there seems to be barriers for ethanol 
coming to the market. And I'm just wondering if anybody on the 
panel can speak to that? Dr. Solomon, you have any comments on 
why we have access problems for the biofuels?
    Dr. Solomon. So I can only speak to the technical 
challenges. I think one of the barriers for cellulosic biofuels 
is just the cost of breaking down raw plant material into 
sugars that we can then ferment into ethanol. And I think as 
the price of oil has dropped, that has become even less 
competitive than has been in the past, which is why you're 
seeing a slow-down in uptake. And that is part of what my 
research tries to address. I mean, the same microbes that 
provide nutrition to animals, they are also the same type of 
organisms that actually break down these materials. And they 
provide the enzymes to do so.
    And so for my part, what we're looking at is trying to 
understand how these unique microbes that we have, how they do 
it better than the current existing technologies do. And we're 
developing approaches to actually manipulate them. So rather 
than complex bioprocessing, where we have a cost associated 
with breaking down lignin cellulose and then the cost with 
upgrading it, can we get some efficiency by combining those two 
steps in a single organism? Can we engineer the one organism--
--
    Mr. Marshall. Sure.
    Dr. Solomon [continuing]. To go directly from grass to fuel 
rather than having to essentially take out the middle man?
    Mr. Marshall. Dr. Carlson, any thoughts on some of the 
barriers to market?
    Dr. Carlson. Well, I think there are several. One is 
ethanol is a complicated molecule to dump into an engine. And 
so even though lots of engines today are supposedly flex fuel 
and can handle ethanol, it's the wrong kind of solvent is the 
right way to say that, I guess. And if you look at Brazil's 
experience, you know, they are people who like to drive 100 
percent ethanol cars and people who like to drive 100 percent 
gas cars. But it's hard to mix those two very effectively on a 
day-to-day basis. So that's nothing to do with ethanol 
manufacture. It has everything to do with the way cars work. So 
that's one thought.
    And then another, again, back to the oil price, is that 
there are certainly months now, if you look at the month-to-
month fluctuations in the cost of corn and the cost of ethanol, 
the price of oil where it costs more to buy the corn to make 
ethanol than you can sell the ethanol for, which is a problem 
we can't solve by making better ethanol from corn just because 
corn costs so much. But I would observe that what I hope 
happens in the future is we shift from making ethanol to 
higher-value compounds. So we use something like 30 percent of 
our corn crop in the United States for industrial use, one way 
or another. A lot of that's ethanol which sells for give or 
take a buck a gallon, a buck a liter maybe, somewhere in that 
range. Wouldn't it be nice if we had technology that could 
upgrade that to something that's sold for $10 a liter or $100 a 
liter? So that's getting more toward that $100 billion in 
biochemicals that those are higher-end chemicals rather than 
competing at the low end of the barrel, as ethanol does with 
fuel. So my recommendation would be, you know, as part of the 
bill to really think about how to facilitate the use of crops 
that right now are commodities. We're great at growing those in 
the States as you say. But rather than aim the product at, you 
know, something that's a commodity, low end of the barrel, aim 
it at something that's much more useful for higher-value 
products.
    Mr. Marshall. OK. I've got 20 seconds left. I guess I'll 
yield back the end of my time. Thank you.
    Chairwoman Stevens. Thank you. We're now going to move into 
a second round of questions. So the Chair is going to recognize 
herself again. And the question is for Dr. Carlson and Dr. 
Simpson. To sustain job creation and U.S. leadership in the 
bioeconomy and our innovative biotechnologies, we must look to 
protect against forced technology transfer, industrial 
espionage, and theft. And as Dr. Carlson and others have noted, 
a number of other nations have launched sustained and effective 
efforts to build their own bioeconomies and biotechnology 
transfer activities.
    In the meantime, tensions have flared between the U.S. and 
China in particular regarding trade policies and intellectual 
property protections. The U.S. has benefited historically from 
scientific collaboration, even with some of our adversaries. 
And there remains legitimate concerns that an overly 
protectionist approach might also hinder innovation.
    So what should the U.S. Government look to do to strike the 
right balance between protecting the fruits of our innovation 
while also supporting the growth of industry?
    Dr. Carlson. Well, I'd like to answer that question two 
ways. The first is to look back to a report on how the internet 
developed and how the funding for the internet developed called 
Funding a Revolution. That was a National Research Council 
study many years ago. And it broke down where the money came 
from to build products that wound up in the world. And there 
were roughly three buckets' worth of funding. One is research, 
one is development, and we'll call the other one productizing. 
And research, fundamental research, is about 1 percent of the 
contribution of the final cost or the final total investment. 
The development showing that it can become a product is about 
10 percent. The other 90 percent is the hard work of basically 
putting it in a box and turning it into something that somebody 
wants to buy and use.
    I'm a great fan of looking back in history to understand 
the future of biotechnology. And that 1/10/90 rule seems to 
hold true for many of the industries that have developed in the 
U.S. The U.S. Government provided not just a large chunk of 
that 10 percent in development, it provides almost all of the 1 
percent. So that also is largely true for biotechnologies. The 
U.S. Government taxpayers are funding a huge amount of the 
basic research that eventually results in products, even if 
companies are funding a lot of the development down the road.
    And so I think we should pay a lot more attention to what 
happens to the products of those research, when they become 
starvers, when they become big companies, in effect. If you 
look at the way China, for example, has dealt with its own 
research agenda, it doesn't spend that much on basic research. 
Instead, it appears to be a farming mat task-out to the United 
States.
    So there's a great deal of acquisition or had been. 
Thankfully this is now coming to a sudden halt. A great deal of 
acquisition by Chinese companies, many of which appear to have 
close relationships with the Chinese government to acquire U.S. 
taxpayer-funded technology and deliver it to the biotech 
industry in China. And so the CIFIUS trial period, I mean, I 
don't know exactly how to talk about that at the moment. But 
those new regulations are having an impact. We are seeing that 
even in our own companies. They're having some more trouble 
finding capital that was evidently flowing freely from China. 
And even though that is impacting me personally and impacting 
them personally, I'm totally fine with that. It should be 
harder for foreign companies to come in, foreign governments to 
come in and acquire that technology.
    Chairwoman Stevens. Dr. Simpson, did you want to jump in 
here?
    Dr. Simpson. Yes. So I mean, I think for commercial 
companies, inherently protecting intellectual property 
developed domestically is part of our lifeblood. So internally, 
we invested enormous amount of effort and energy into not only 
solidifying our patent portfolio but protecting technology as 
trade secrets, ensuring that all information that we develop is 
harnessed behind firewalls, et cetera, et cetera. So data 
protection, invention protection, intellectual property 
protection is an inherent part of our business.
    But we're also seeking to commercialize technologies 
internationally. And I think it is appropriate that 
technologies advanced here domestically, the domestic companies 
have the opportunity to commercialize that throughout the world 
and therefore generate revenues that flow back to the United 
States. And not hindering that commercialization is something 
that I think that the panel should consider very strongly 
because in order to maintain leadership, the opportunity for a 
local innovations to commercialize elsewhere, is something that 
should be encouraged because that encourages further investment 
in this technological area.
    Chairwoman Stevens. Great. Thank you. And the Chair would 
now like to recognize Mr. Foster for 5 minutes.
    Mr. Foster. Thank you. I'd like to bring up the interesting 
subject of artificial meat, which is another interesting 
horserace that's happening. I remember after I had been 
defeated in the Tea Party wave about a decade ago, I was trying 
to figure out what to do with my life next and was fascinated 
by a set of papers coming out of I think the Netherlands on 
cell-based artificial meat which seemed like the promising 
thing, you know, avenue at that time. But I was struck, last 
weekend I stopped at a White Castle and treated myself to an 
Impossible slider, which is a 100 percent plant-based 
artificial hamburger, and to my mind to my taste buds a quite 
credible substitute.
    And so I was wondering, there's also a recent article I 
think in Science magazine questioning the carbon footprint of 
cell-based meat, that it might actually not be a big win 
compared to just harvesting a crop and stuffing it through an 
animal and eating the animal. And in that case, the plant-based 
approach might be much better from a carbon footprint point of 
view. I was wondering if any of you have, you know, comments on 
how you view that horserace.
    Dr. Simpson. I mean, I think the first thing to say is I 
think it is a fascinating development because for many of the 
people who would inherently be interested in consuming, for 
example, and Impossible burger, they may also be interested in 
organic food. They may also be interested in non-genetically 
engineered food. And the Impossible burger represents a highly 
inorganic, highly genetically engineered meat substitute. So 
from this perspective, and as a scientist, it represents an 
incredible way of educating the public as to what is possible 
but what one needs to think about when consuming the possible 
or impossible.
    Dr. Zoloth. I just want to say one thing about the 
Impossible burger is that it was developed by an HHMI (Howard 
Hughes Medical Institute) scientist, one of America's leading 
scientists from Stanford University, who gave up tenure and 
HHMI funding because he was devoted to trying to solve climate 
change in any way he could, as Professor Patrick Brown. And 
this development, he's committed to doing this, making sure 
it's not just a hippy alternative but it's in White Castle and 
it's widely available. And that is a transformative technology, 
of course, America leading the way in this. This use of the 
most innovative and interesting science to deconstruct the 
hamburger, it really shows the power of this kind of technology 
and the way it should be supported.
    Mr. Foster. Yes.
    Dr. Zoloth. And it's very good, too. It's tasty.
    Dr. Carlson. I do have one observation here which is that 
it's very early. So whatever the assertions are today about the 
economics, about the environment cost of production, they will 
change. And the window that I have into this is not via meat, 
necessarily, but it's human cell culture for therapy. So one of 
our companies is manufacturing stem cell therapies, and they 
have driven the cost down by orders of magnitude just in the 
last few years. There's another couple of orders of magnitude 
to go, and they are reducing the footprint of the materials 
they use, the environmental footprint of the materials they use 
as well as the cost.
    So I have a strong suspicion that whatever the analysis 
suggests today about the environmental and/or economic cost of 
meatless meat, it's going to change so much that, you know, 
it's going to be fine in effect.
    Mr. Foster. All right. And another sort of big-picture 
question. Do we have enough farmland? You know, if all your 
dreams come true, are we going to have, for the number of 
people--just assume that we keep the population constant in the 
United States and look at the rate at which we consume 
transportation, fuels, all the other. When you get all the 
efficiencies working here, are we going to find ourselves 
having surplus farmland and turn large fractions of the country 
back into national parks or what's your view of how all this 
will end up, you know, 100 years from now?
    Dr. Carlson. Over the long term, yes, we could return 
substantial fractions I think of the land now under cultivation 
to other use, to natural, you know--I mean there's this old 
phrase, the gardenification of nature. It turns out that 
significant fractions of this country were not so natural, even 
when European settlers arrived. They were altered significantly 
by the native population.
    So back to that observation that we use about 30 percent of 
our corn crop for industrial use already, in that sense, we 
produce more than enough food in this country to use those raw 
materials for other purposes. And I think it's also important 
to recognize there are other technical trends coming that 
impact that. So I keep a close eye on electric cars and solar 
and wind and basically how the electricity grid is changing.
    And well before 100 years from now, we're going to have 
shifted transportation use to nearly 100 percent electric 
vehicles. And that means that, you know, if you plan on selling 
ethanol as a fuel, that market isn't actually going to be 
around very much longer. It would be surprising to me if that 
were a 10-year market even. So we're going to wind up using 
those crops to make chemicals much sooner than maybe everyone 
is anticipating. I mean, Exxon for example is investing now 
very heavily in petrochemicals. I'm not sure that's a wise 
choice of their investment.
    Dr. Simpson. I think one thing I would mention is that 
electric vehicles will affect the market for ethanol, there are 
fuel markets in which we cannot electrify. I for one am not 
getting on an electrically powered plane any time in the next 
50 years. That is almost certainly not going to happen anytime 
soon.
    And so one has to develop low-carbon fuel solutions for 
sectors where battery technologies simply won't provide the 
solutions required. I mean, within our company, we've developed 
the technology to convert ethanol actually into jet fuel, 
ethanol into diesel. And so using a molecule that we can 
produce en masse from agriculture and from waste streams and 
ultimately from CO<INF>2</INF> as a platform for the production 
of high-density air transport, sea transport, and road 
transport fuels as well as a platform for a variety of 
commodity chemicals makes absolute sense from both an 
industrial security, energy security, and national security 
perspective.
    Dr. Carlson. I just want to throw my 2 cents in there, too. 
I didn't mean to say that we won't have any liquid fuels or 
that, you know, there won't be any use for that kind of 
technology. But I think the world is going to change remarkably 
over the next 10 years. And if you look at China just in the 
last 6 months, internal combustion automobile sales have been 
crashing and electric vehicle sales have been going through the 
roof. And it's going to really alter the way we, very soon I 
think, think about the way we use our petroleum resources and 
our biological resources.
    Mr. Foster. Thank you. I guess I made the mistake a couple 
years back of going to one of these websites where you 
calculate your personal carbon footprint and found as a Member 
of Congress it was completely dominated by the fact that I fly 
back to Illinois each weekend to say hello to those who elected 
me.
    Anyway, I want to thank the panel. This has been really 
good. And the Chair for having this hearing.
    Chairwoman Stevens. Before we bring the hearing to a close, 
we obviously want to thank our witnesses, our expert witnesses, 
for testifying before the Committee here today. We find 
ourselves in the Research and Technology Subcommittee at a 
tipping point where there is no vision, the people will perish 
and where we find ourselves dipping into the future. And so the 
remarks of my colleague, Mr. Tonko, about the importance and 
honor of being a part of this Committee are quite significant. 
And we remain very pleased to have such strong, Midwestern 
leadership at the table and with us here today, particularly 
given the important role that industry, government, academia, 
philosophy play in having these dialogs and as we look to put 
forward the Engineering Biology Research and Development Act. 
No doubt today was significant. So our record will remain open 
for 2 weeks for additional statements from Members and for any 
additional questions that the Committee may ask. The witnesses 
are excused and the hearing is now adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
